<html>
<title> - COMBATING TERRORISM: AXIS OF EVIL, MULTILATERAL CONTAINMENT OR UNILATERAL CONFRONTATION?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
    COMBATING TERRORISM: AXIS OF EVIL, MULTILATERAL CONTAINMENT OR 
                       UNILATERAL CONFRONTATION?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 16, 2002

                               __________

                           Serial No. 107-187

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

86-195              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Pararino, Senior Policy Advisor
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2002...................................     1
Statement of:
    Benjamin, Daniel, senior fellow, Center for Strategic and 
      International Studies......................................    19
    Carr, Caleb, military historian/author.......................    41
    Kirkpatrick, Ambassador Jeane J., director, foreign and 
      defense policy studies, American Enterprise Institute......     8
    Perle, Richard, resident fellow, American Enterprise 
      Institute..................................................    13
    Scowcroft, Lieutenant General Brent, (Ret.), president, the 
      Forum for International Policy.............................    12
Letters, statements, etc., submitted for the record by:
    Benjamin, Daniel, senior fellow, Center for Strategic and 
      International Studies:
        Article dated December 20, 2001..........................    21
        Prepared statement of....................................    33
    Carr, Caleb, military historian/author, prepared statement of    44
    Perle, Richard, resident fellow, American Enterprise 
      Institute:
        Debate dated January 21, 1997............................    88
        Prepared statement of....................................    16
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3


    COMBATING TERRORISM: AXIS OF EVIL, MULTILATERAL CONTAINMENT OR 
                       UNILATERAL CONFRONTATION?

                              ----------                              


                        TUESDAY, APRIL 16, 2002

                  House of Representatives,
Subcommittee on National Security, Veterans Affairs 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich, Schrock, Gilman 
and Putnam.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; R. Nicholas Pararino, senior policy advisor; Jason 
Chung, clerk; and David Rapallo, minority counsel.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Veterans Affairs and International Relations 
hearing entitled, ``Combating Terrorism: Axis of Evil, 
Multilateral Containment or Unilateral Confrontation?'' is 
called to order.
    In his State of the Union address, the President said, 
``Nations harboring or enabling terrorists constitute an axis 
of evil arming to the threaten the peace of the world.'' Since 
then, both allies and antagonists have questioned the accuracy 
and utility of so sweeping a description of the disparate but 
growing peril posed by global terrorism and weapons of mass 
destruction.
    One fact cannot be questioned. The world changed on 
September 11th; the global axes of political, diplomatic and 
military affairs shifted along a fault line marked by more than 
3,000 graves. The urgency of confronting state sponsors of 
terrorism and nations developing weapons of mass destruction 
reoriented the civilized world along moral not geographic 
lines. This new perspective raises important questions about 
counter terrorism programs and policies at home and abroad. 
Should terrorist states be contained or confronted? How can 
multilateral coalitions be sustained when no definition of 
terrorism has been agreed upon? What consideration of 
circumstances justify unilateral action on the part of the 
United States against terrorism?
    The most fundamental obligation of government is the 
protection of its people. Transnational terrorism and the 
proliferation of nuclear, chemical, biological, and 
radiological weapons constitute grave and imminent threats to 
lives of millions. Protecting U.S. citizens against these 
extraordinary dangers requires extraordinary actions. As the 
President observed, the price of indifference to the menace 
upon us would be catastrophic.
    To discuss the effectiveness, scope and implications of 
U.S. counter terrorism policies in a world realigned by war 
without boundaries, we are very fortunate to be joined by a 
most distinguished panel of witnesses. They bring impeccable 
credentials, impressive experience and a wealth of knowledge to 
our ongoing oversight of these issues. We are grateful for 
their time and look forward to their testimony.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.001
    
    [GRAPHIC] [TIFF OMITTED] T6195.002
    
    Mr. Shays. At this time, I would recognize the ranking 
member, Mr. Kucinich.
    Mr. Kucinich. In his most recent State of the Union 
address, the President singled out North Korea and Iran and 
Iraq as constituting an axis of evil, arming to threaten the 
peace of the world by ``seeking weapons of mass destruction,'' 
he told the Nation ``these regimes pose a grave and growing 
danger.''
    There was considerable question whether this 
characterization is fully accurate. Many intelligence reports 
belie the President's claim that Iran aggressively pursues 
nuclear weapons and in recent years, North Korea has grown 
increasingly willing to cooperate with the world community.
    Let us leave this debate aside momentarily and assume the 
President chose to publicly and unilaterally vilify these three 
countries for one major reason, to put their leaders on notice 
that the United States will not tolerate any efforts to develop 
or acquire weapons of mass destruction. Certainly it is not 
unreasonable for the President to issue a strong warning to the 
potentially wayward regimes.
    The administration failed to anticipate at least two 
ancillary effects of the President's comments. First, it has 
derailed efforts to negotiate the termination of North Korea's 
missile program and second, it has undermined efforts by 
President Khatami, and other pro-reform Iranians to moderate 
the policies of Islamic fundamentalists. The speech's effect on 
relations with North Korea is perhaps most alarming.
    In the waning days of the Clinton administration, the 
United States had been on the verge of signing an agreement to 
normalize relations and to provide substantial aid to North 
Korea in return for a permanent end to its missile development 
and proliferation programs. The current administration 
initially declined to take up these talks but eventually 
changed course and made tepid overtures toward the Kim Jong Il 
government.
    Since the State of the Union Address in January, North 
Korea has dismissed U.S. requests for broad negotiations. 
Pyongyang has even threatened to abandon a longstanding 
agreement with the United States under which it is receiving 
assistance to construct light water nuclear reactors in 
exchange for attending its nuclear program.
    Similarly, the President's comments have made it difficult 
for President Khatami and other Iranian moderates to publicly 
push for the Ayatollah to temper his virulently anti-western 
stance. The State of the Union Address began a wave of anti-
American protests in Iran in which both moderates and 
fundamentalists participated.
    No one doubts this administration sincerely wants to rid 
the world of weapons of mass destruction and enhance national 
security but to date, the President's axis of evil speech 
seemed to have the opposite effect. CIA officials long ago 
coined a term for this phenomenon, ``blow back.'' International 
affairs expert, Chalmers Johnson explores this idea in his 
book, ``Blow Back, the Cost and Consequences of American 
Empire.'' The term ``blow back,'' he writes ``refers to the 
unintended consequences of policies. In a sense, ``block back'' 
is simply another way of saying what a nation reaps, it sows.
    Whether it is the U.S.-led embargo of Iraq that has led to 
the deaths of thousands Iraqi citizens and solidified Saddam 
Hussein's hold on power or the CIA sponsorship of anti-Soviet 
fundamentalists in Afghanistan that led to the rise of the 
Taliban, or the U.S. backing of right wing military 
insurgencies in Latin America that led to civil war and the 
killing of civilians, history is replete with instances where 
American policy has had disastrous consequences for both 
Americans and others, according to Johnson. This I believe is 
the most insidious consequence of American unilateralism and 
adventurism. It has unintended consequences that undermine the 
very policy goals we seek to promote in the first place and 
thus makes the world and America less stable, less secure, less 
peaceful.
    The President's axis of evil comments have already had 
significant impact and only time will reveal their full 
implication but these are mere words. The world's geopolitical 
trash bin is littered with treaties and agreements unilaterally 
discarded by the United States under this administration and 
certainly the implications of these actions will be far more 
extensive than a provocative State of the Union address. What 
will be the consequences of the United States' withdrawal from 
the ABM Treaty. Might China augment its nuclear capabilities 
forcing India and Pakistan to follow suit in a South Asian arms 
race? Might the rush to develop anti-ballistic missile 
technologies leave Americans vulnerable to attack via a 
suitcase bomb or other crude alternatives? What will be the 
consequences of the administration's plan to cast aside its 
responsibilities under the comprehensive test ban treaty and 
develop bunker busters? Without these treaty restraints, might 
other nuclear nations and potential nuclear nations be 
emboldened to resume or begin testing? If the United States 
demonstrates its willingness to use nuclear weapons, will other 
nations assume the same posture? What about the 
administration's refusal to negotiate in good faith toward an 
enforcement mechanism for the Biological Weapons Convention?
    The proprietary interest of American pharmaceuticals may be 
safe but will Americans be safe if other countries are able to 
develop bioweapons programs without fear of discovery or will 
the burgeoning small arms trade the administration has refused 
to help control continue to play a part in the death civilians 
and Americans at the hands of terrorists? Will land mines which 
the United States has refused to renounce, 1 day maim American 
servicemen? Will the American POW 1 day be mistreated because 
our government has refused to fully grant the Guantanamo Bay 
prisoners their Geneva Convention rights?
    Chalmers Johnson writes, ``Even an empire cannot control 
the long term effects of its policies. That is the essence of 
blow back.''
    Today, the United States stands unmatched as a global 
military and economic super power. This brings both opportunity 
and peril. American policies and actions can have disastrous 
results for millions of people or it can uplift them. For 
America's impact to be a positive one, this administration and 
future administrations must be more than simply instruments of 
U.S. corporations. The United States must have in mind the 
interests of the American people and billions of other ordinary 
people who inhabit our world.
    Similarly, we must seek consultation from the world 
community in developing American policy and involve the world 
community in its implementation. Crafting policy based on our 
own narrowly focused, short term interests invariably yields a 
world less stable and less secure. That is the sort of world 
that breeds terrorism.
    I hope we can explore some of these themes in our 
discussion today. I thank the Chair.
    Mr. Shays. Mr. Gilman.
    Mr. Gilman. Thank you for conducting this timely hearing on 
a matter crucial to our national security. Our Nation's 
prosecution of our war on terrorism has achieved wide success 
to date, both at home and on the battlefields abroad. From 
thwarting untold additional terrorist attacks on our own soil, 
to disrupting and destroying terrorist infrastructures around 
the world. Indeed the experience of recent history has taught 
us the front line of the war on terrorism is not just here but 
everywhere.
    Accordingly, the gratitude of our Nation goes out to our 
police, our firefighters, emergency responders and all of our 
military personnel for putting their lives in danger in the 
name of patriotic public service on a daily basis. Their 
steadfast commitment to our national security is the greatest 
deterrent against those who would do us harm.
    The war on terrorism is one segment of a larger war that 
our Nation is conducting against a number of often 
interlocking, transnational security threats. In Latin America, 
in Asia and at home we are engaged in an ongoing war, a war on 
drugs which threatens our democratic neighbors and undermines 
social stability here and abroad. Moreover, in various regions 
around the world, we are working with our allies to stamp out 
the insidious trade in human trafficking, sexual slavery, 
forced child labor, and other illegal enterprises undertaken by 
international criminal organizations.
    Now our Nation is compelled to address the prospect of a 
broader proliferation of weapons of mass destruction in the 
hands of rogue nations, including Iran, Iraq, Syria and North 
Korea. As President Bush noted during his State of the Union 
Address in January, ``These nations constitute an axis of evil, 
representing a direct threat to the security of our Nation and 
to our allies around the world.'' Accordingly, it is critical 
that our Nation counter the clear and present danger these 
terrorist sponsoring nations pose lest we become vulnerable to 
their threats and demands as our global campaign against 
terrorism moves forward.
    To address the threat these states pose to our Nation, we 
must maintain flexibility in our options, whether they be 
military, diplomatic or economic. A comprehensive approach 
which does not rule out any course of action will maximize our 
effectiveness against the aforementioned states which seek to 
acquire weapons of mass destruction. Moreover, while the 
support of our allies around the world is always welcomed, we 
must be willing to act alone in the interest of our Nation when 
compelled to do so.
    Our national security and the continued viability of our 
way of life should be viewed as a precondition to all other 
considerations. In short, these are the complex issues which 
require sophisticated approaches. Accordingly, Mr. Chairman, I 
join in welcoming the opportunity to hear the views from our 
distinguished panel before our committee today, Ambassador 
Kirkpatrick, General Scowcroft, Fellow Richard Perle, Fellow 
Dan Benjamin, and author, Caleb Carr.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Schrock.
    Mr. Schrock. I am delighted you are here as well and I can 
certainly align myself with what Mr. Gilman said. I don't think 
there is a topic on Americans' minds more than terrorism today. 
To have you all here to talk to us is a real honor. Thank you 
for taking the time to be with us and I look forward to hearing 
your testimony.
    Mr. Shays. Let me do some housekeeping. I ask unanimous 
consent that all members of the subcommittee be permitted to 
place an opening statement in the record and that the record 
remain open for 3 days for that purpose. Without objection, so 
ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record and 
without objection, so ordered.
    Recognizing our witnesses, we have a wonderful panel: 
Ambassador Jean Kirkpatrick, director, Foreign and Defense 
Policy Studies, American Enterprise Institute; General Brent 
Scowcroft (ret.), president, the Forum for International 
Policy; the Honorable Richard Perle, resident fellow, American 
Enterprise Institute; Mr. Daniel Benjamin, senior fellow, 
Center for Strategic and International Studies; and Mr. Caleb 
Carr, military historian and author.
    If you would stand, we swear our panels and we will go from 
there.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record that all our 
witnesses responded in the affirmative.
    Ambassador Kirkpatrick, I understand you are teaching a 
class, so what time do you need to leave here?
    Ambassador Kirkpatrick. By 2:30 p.m.
    Mr. Shays. Then I had better have you go first.

STATEMENT OF AMBASSADOR JEANE J. KIRKPATRICK, DIRECTOR, FOREIGN 
   AND DEFENSE POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ambassador Kirkpatrick. Thank you, Chairman Shays.
    I regret I have a class to teach at Georgetown which makes 
it important that I go first.
    Mr. Shays. You can think of us as a class.
    Ambassador Kirkpatrick. Thank you. My students need me 
more, I think.
    I am happy to be here today and testify. I believe your 
subject is, as we all know, of the greatest importance, urgent 
importance. The President has recognized that importance in a 
series of powerful and persuasive speeches, I think. We have 
all recognized its importance from simply being alive on 
September 11th and being forced to think about those events, 
but most of us on this panel were aware of the importance of 
federalism well before September 11th because positions which 
we have held have made us sensitive to terrorism.
    I was asked, as I understood it, to take particular account 
of the experience of the Reagan administration as I know about 
it with terrorism and our efforts to respond to it. I think it 
is important to state in the beginning that what defines a 
terrorist I think is he is a person who declares total war on 
the society which he attacks. He literally does. It is hard to 
believe and it is hard to think about some person declaring 
total war on us as individuals or on our society.
    I think it is important to remember that terrorism began a 
period of very rapid growth in the 1960's. As a matter of fact, 
the President was inaugurated at the time that the American 
Embassy had been seized in Tehran by those who were followers 
of the Ayatollah Khomeni and our embassy personnel had been 
seized and held prisoners after being humiliated, starved and 
mistreated generally in Tehran.
    This, by the way, was a very special horror to President 
Ronald Reagan. He always said after that he could almost not 
imagine anything worse for a President to have to face than to 
have a group of Americans, public servants, seized, held and 
mistreated in the way our employees were. He felt that 
President Carter had been very, very unfortunate in having this 
happen on his watch and President Reagan was very concerned 
that it not happen on his watch.
    The fact is terrorism was already spreading when Ronald 
Reagan became the President. The rise of fanatical Islamism had 
begun. The Reagan administration, including the President 
himself, had quite a lot of contact with terrorism and was 
forced to confront it.
    It depends a little on how you define terrorism, whether 
you want to count the effort to assassinate Ronald Reagan 
himself an act of terrorism. I believe that it was an act of 
terrorism myself but it was not a terrorist group who attacked 
him, it was a terrorist individual. It was not done with so 
much a specific political goal apart from his murder, just 
that, but it was a dramatic introduction to the presence of 
violence in our society aimed at our government.
    The next contact of the Reagan administration with 
terrorism came with the hijacking of the Achille Lauro which I 
am sure everyone remembers which was the height of a pleasure 
ship, a cruise ship that was hijacked off the coast of Egypt on 
its way to Israel. It was transporting Americans, just 
Americans. It was hijacked and the Americans on board were 
treated in a very brutal fashion, and one of them was murdered. 
That was Leon Klinghofer, a man whose name I think most of us 
remember, I remember anyway, who was not only a man confined to 
a wheelchair on a vacation cruise, but his wheelchair and he 
were pushed overboard and he drowned. He was killed actually 
before he was pushed overboard off the coast of Egypt.
    That act of terrorism was carried out by a PLO group, by 
the way, headed by one Abou Abass, who was a member of the PLO 
Executive Committee and a close aide to PLO Chairman Yasser 
Arafat. They had smuggled some quite heavy weapons on board the 
Achille Lauro at the same time they boarded the group who 
carried out these murders.
    Not long after that, there were questions about whether the 
hijackers would be turned over to the United States or whether 
Egypt would try them, which Egypt chose to do. President Reagan 
was quite unhappy about the way that developed and the fact 
they were not extradited to the United States since the attack 
had bene on Americans.
    The next encounter I believe was when Libya bombed the U.S. 
forces in the Gulf of Sidra and U.S. planes and the consequence 
of that. Libya also bombed U.S. properties elsewhere. The 
consequence of that was that President Reagan decided to bomb 
Libya and he did. He bombed the living quarters where Muammar 
Qaddafi and a number of his close associates and relatives 
lived. It was said at the time, I don't know whether this was 
true or not, but it was said at the time lived.
    You may recall that this was a traumatic experience for 
Qaddafi and he was transformed from a person who spoke all the 
time with threats and promises of the damage he intended to 
reek on the world to a person who was really quite quiet. He 
remains rather quiet until today though I understand he is once 
again active in the terrorist world.
    The first responses, experiences the Achille Lauro and the 
Libyan bombings of American property and Americans made clear 
that President Reagan intended not to accept the attacks on 
Americans passively and when Americans were attacked by violent 
terrorists seeking them harm, damage and death, he would do his 
best as the U.S. President to retaliate. He continued this 
policy through his period as president. Muammar Qaddafi 
continued also his efforts to cause various kinds of damage and 
anxiety to Americans.
    I might mention a personal experience which wasn't just 
personal to me, it was personal to a number of members of the 
Reagan administration. The period before the United States 
actually bombed Libya, some events had occurred which were not 
public and therefore were not fully appreciated as part of what 
President Reagan was responding to when he bombed Qaddafi.
    It involved the dispatching of some Libyan death squads. It 
was asserted at the time--you may recall or you may not 
recall--that there were two death squads, one dispatched to the 
United States by way of Canada and one by way of Mexico, that 
their intention was to wipe out Ronald Reagan and several 
members of his Cabinet. They named the several members of the 
Cabinet and included Ed Meese, Cap Weinberger and me, as a 
matter of fact. They were called special friends of the 
President which became an uncomfortable designation.
    One consequence of this was, being designated a special 
target, the security was greatly enhanced in our lives and one 
lost of movement and the security that goes with a personal 
sense of safety. It meant that whenever any of us were going to 
travel abroad, we had to notify the government we were going to 
visit in some depth and that government assigned security to us 
for the period we were visiting and we really had to adapt our 
lives to this proposition that we were in some danger.
    From time to time, there were sitings of these people 
because there were pictures and drawings of them. They could 
take pictures of them when they thought they cited them and it 
added a special spice, you might say, to life, to become a 
target of these people.
    It wasn't a great hardship but on the other hand, it wasn't 
comfortable. The effort to make members of the Reagan 
administration, several of them, uncomfortable personally, was 
an attribute of the terrorist offensive against us.
    There were other, much more serious attributes of terrorist 
attack, one being the attack on American forces in Lebanon and 
the occasion when there were 240 Marines killed while they 
slept in their barracks in Lebanon when they were there as part 
of an international peacekeeping force. They were killed in the 
Bekaa Valley a favorite place for terrorists. These were 
Iranians quite clearly. They were doing no one any harm, they 
were not making war on anyone, they were peacekeepers in a 
peacekeeping force with the British, the French and the 
Israelis.
    Mr. Shays. Because you are going to leave in 5 minutes, I 
want you to address this issue and then we will go right to Mr. 
Scowcroft.
    I am taking the liberty of asking a question here, but I 
would like you to address the issue of axis of evil. I would 
like you to respond as to whether it is helpful or harmful, 
what its consequences are by describing three countries as an 
axis of evil. You basically have two descriptions here and I 
know my colleague made a long statement that expressed his 
concern about it, my ranking member. Could you kind of address 
that before you leave?
    Ambassador Kirkpatrick. I think the axis of evil is a 
useful concept actually because I think it links the reality of 
threats by governments against individuals and against groups 
and against governments. It links those threats and attacks, 
making clear there are diverse means by which they would be 
attacked.
    I think individuals and governments, heavy weapons and 
medium heavy weapons are all capable of causing great harm and 
destroying the pleasure and lives of individuals, but also of 
destroying whole societies in their war against societies.
    I think it was an appropriate concept for the President and 
I was glad he used it.
    Mr. Shays. I am going to let Mr. Kucinich ask a question 
and then we will deal with the panel of four and not be able to 
ask you some questions.
    Let me ask you, why three, why not four? Do you get off and 
on this axis of evil or do you stay on it, once on you are 
always on? Once you are on this axis of evil, one of the three, 
are you always on it? Do you have the ability to get off it? I 
am trying to understand ultimately the consequences. Does it 
encourage others not to become part of the axis of evil? What 
will it lead to is what I am interested in knowing?
    Ambassador Kirkpatrick. I don't believe anyone or any 
person or an country controls their relationship to an axis of 
evil. The axis of evil consists of governments which are headed 
by dangerous, violent and expansionist persons who seek to do 
harm in the world and who have targets. If you are targeted, 
you can try to be safe but you can't eliminate the threat.
    Mr. Shays. Let me let Mr. Kucinich ask a question if he 
likes and then we will go to our panel of four.
    Mr. Kucinich. I already made my statement, so I will pass.
    Mr. Shays. Thank you very much for coming, I appreciate it.
    Ambassador Kirkpatrick. Thank you.
    Mr. Shays. General Scowcroft.

    STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT (RET.), 
         PRESIDENT, THE FORUM FOR INTERNATIONAL POLICY

    General Scowcroft. I am privileged to appear before you to 
discuss such an important subject. You asked me to comment 
especially on U.S. terrorism policy under the first Bush 
administration.
    Let me say at the outset that it is somewhat difficult to 
compare the policies of the Bush 41 administration with respect 
to terrorism and states seeking weapons of mass destruction 
with those of the present situation because circumstances were 
significantly different.
    Acts of terrorism involving the United States such as the 
Pan Am 103 explosion were generally clearly state sponsored. A 
global terrorist organization such as Al-Qaeda did not, so far 
as we know, exist at that time, so there are some differences.
    The general operational policy of the Bush administration 
was to show a preference for multilateral response to acts of 
terrorism. There were multilateral sanctions, for example, 
imposed on Libya for the Pan Am 103 bombing, but Europe 
rejected the inclusion of oil exports in those sanctions 
probably the most effective sanctions against Libya, which is 
always one of the problems with multilateral sanctions.
    Were the Pan Am 103 sanctions a success? Opinions vary 
widely. There was a trial, one of the perpetrators was found 
guilty but in addition to that, for whatever reason, Qadaffi's 
participation in terrorism seems to have declined dramatically 
since that time.
    Regarding potential weapons of mass destruction states, at 
that time, Iraq and North Korea predominantly, the action was 
likewise multilateral. With respect to Iraq, the Gulf War was 
multilateral. The military coalition of some 31 states were 
involved as were U.N. sanctions imposed in the aftermath of 
that war. Those sanctions have at least delayed the acquisition 
by Iraq of weapons of mass destruction but that chapter has yet 
to be completed.
    With respect to North Korea, we also moved in a 
multilateral framework to encourage, indeed to succeed in 
getting North Korea to accede to the Nuclear Nonproliferation 
Treaty and to inspections by the International Atomic Energy 
Agency but before those inspections were to take place, North 
Korea backed out of them. So those efforts were clearly a 
failure and they led to a downturn in relations with increasing 
pressure by the United States to the crisis of 1994 and the 
present tenuous situation with regard to North Korea.
    The present situation regarding terrorism has quite 
different characteristics. The struggle is against global 
terrorism and states which harbor global terrorists. The most 
military part of this campaign may already be over. It is my 
sense that not many states are likely to volunteer to be the 
next Taliban. So our efforts are likely to be focused on global 
terrorist networks themselves rather than on states which 
harbor them. That primarily is a war of intelligence. Every 
time the terrorists move, every time they talk, every time they 
spend money, every time they get money, they leave traces and 
indications. It is our task to pick up those traces and to put 
together a concept of the organization of the terrorists and 
cleaning them out once we know where they are, is a relatively 
simple job.
    In order to do that, we need allies, we need friends. We 
cannot cut our finances, we cannot do much of this intelligence 
job without cooperation from our friends.
    What about the axis of evil? Let me say I am not privy to 
any special interpretation of the term itself, but those three 
countries have at least two things in common. They intensely 
dislike the United States and they are seeking weapons of mass 
destruction, especially of concern to us, nuclear weapons.
    Our rationale for those countries seeking to nuclear 
weapons and a delivery capability to be a threat to the United 
States is those weapons would mostly likely be used to 
blackmail the United States against taking actions we might 
otherwise want to engage in. If that is true, and while it is a 
hypothesis, it is a plausible thesis, why would those states 
turn their nuclear weapons over to terrorists, putting them 
completely out of their hands and control and likely to be 
employed for very different objectives, gratuitous terror.
    It seems to me that weapons inadequately secured in Russia 
are a far more likely source for terrorist organizations than 
are those of the axis of evil and yet we do not seem eager to 
increase the size of the non-nuclear program designed to 
provide security for Russian nuclear weapons and even use the 
funds for that program as leverage on other issues with the 
Russians.
    In conclusion, I would say the countries of the axis of 
evil are certainly a problem for the United States, perhaps a 
threat. They do not wish us well but their threats to the 
United States and its interests do not seem to me to be 
primarily related to terrorism itself.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, General.
    Mr. Perle.

     STATEMENT OF RICHARD PERLE, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Perle. Thank you for including me in these important 
deliberations on how the United States can best deal with 
terrorism. I think that is the ultimate objective, to gain some 
insight into that difficult question. I will make only three 
brief points.
    First, I believe President Bush was not only accurate in 
his description of Iran, Iraq and North Korea as an axis of 
evil, but he was wise to use that memorable phrase in his State 
of the Union message.
    I know others disagree. The French Foreign Minister 
considers the President's points simplistic. Chris Patten at 
the European Union Commission sitting comfortably in Brussels 
has warned us against ``taking up absolutist positions and 
simplistic positions.''
    I must say frankly that when I came here, I was focused on 
European disapproval of the President's remarks. I had no idea 
that Mr. Kucinich is even more vigorous in his opposition to 
what the President had to say.
    Mr. Kucinich. Mr. Chairman, is the witness here to 
characterize what Members of Congress say?
    Mr. Shays. Yes--be loose. You have been too up tight. He 
can say whatever he wants and then you can question him and say 
whatever you want.
    Mr. Kucinich. I just wondered how this committee proceeds. 
Thank you.
    Mr. Shays. We proceed with grace and honesty. We are going 
to have an honest dialog with each other.
    Mr. Perle. I now understand the opposition is not confined 
to those abroad who do not face the terrorist problem that we 
face.
    All of this reminds me of the reaction to President 
Reagan's use of the phrase ``empire of evil'' as a description 
of the Soviet Union. There was handwringing all around when he 
said that, much of it in the same allied capitals from which we 
now hear criticism of President Bush's candid, straightforward 
characterization of Iraq, Iran and North Korea.
    The Soviet Union was indeed an empire and it was certainly 
evil and Ronald Reagan's willingness to say it straight out 
contributed mightily to the political assault that ultimately 
brought it down. The critics didn't realize it at the time, and 
some may not accept it even now, but Ronald Reagan's much 
derided words had historic political consequences that I 
believe he anticipated when his critics did not.
    The axis of evil may well prove to be of similar 
importance, albeit on a lesser scale. Recognizing the lines of 
cooperation that now exist among these three regimes, focusing 
attention on their collaboration which is not free of 
differences to be sure, is necessary if we are to come to terms 
with the threat posed by those regimes supporting terrorism 
which also possess or are working to acquire weapons of mass 
destruction.
    Second, I believe President Bush's response to September 
11th which has been to go after regimes supporting terrorism is 
exactly right and long overdue. It represents a fundamental and 
brave shift in policy. It is this essential new approach that 
accounts for much of the misgiving about American policy among 
our feint-hearted allies.
    Unless we take the war on terror to the terrorists and to 
the states that offer them sanctuary and all manner of 
assistance, we will lose this war. I very much hope that 
General Scowcroft is right, that others who now offer sanctuary 
to terrorists will cease doing so and it is certainly true that 
until now, it has been cost free to offer hospitality to 
terrorists and the example of the Taliban may well produce the 
result General Scowcroft anticipates but it may not.
    We are an open society and if we wish to remain one, as we 
surely do, we must deny terrorist the freedom to scheme and 
organize against us by making sure they are on the run. 
Terrorists who must sleep in a different place each night out 
of fear they will be apprehended by the authorities will be far 
less able to carry out acts of terror than they are now, 
comfortable in Baghdad, Tehran, Damascus and elsewhere and they 
are comfortable despite Khotemi's feeble government in Iran and 
they are comfortable under Saddam's tutelage in Baghdad and 
they are comfortable under Ashir Basad in Damascus and they are 
certainly, if they wish to go there, as comfortable as you can 
be in Kim Jong Il's North Korea. That is why it was essential 
to destroy the Taliban regime in Afghanistan and it is why we 
must support a regime change in Iraq.
    While we will always prefer to operate in close 
collaboration with our friends and allies, our interests are 
not identical to theirs. It is understandable that governments 
in Paris, Berlin, Brussels and The Hague do not feel the same 
sense of danger that September 11th elicited among Americans. 
They are not reading daily intelligence about threats to their 
citizens as are we. They were not the victims on September 
11th, we were.
    The rhetorical cliche that September 11th was an attack on 
civilization may be true in a sense, but those who died were 
here on our soil. We must be careful about the weight we attach 
to our own lofty words. Most of our closest allies are not 
threatened as we are and it is natural that they will not 
happily accept the risks that we must accept to cope with that 
threat.
    There may be times when we have to be prepared to act alone 
for no government can base its most fundamental self defense on 
a show of even friendly hands. That, I believe, Mr. Chairman, 
is the essential point about the tension between acting 
unilaterally and acting multilaterally. It would be fine if our 
friends, by voting with us, could somehow magically secure our 
territory but they cannot and because they cannot, the job will 
fall ultimately to us and possibly to us alone.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perle follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.003
    
    [GRAPHIC] [TIFF OMITTED] T6195.004
    
    [GRAPHIC] [TIFF OMITTED] T6195.005
    
    Mr. Shays. Thank you.
    Mr. Benjamin.

    STATEMENT OF DANIEL BENJAMIN, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Benjamin. Thank you very much for the invitation. I am 
honored to be on such a distinguished panel, and particularly 
honored and delighted to appear before your subcommittee since 
you were for many years my representative and continue to be 
that of my family. It is also good to see Representative Gilman 
again who we had the opportunity to spend several days together 
discussing terrorism. He and his gracious wife took 
exceptionally good care of my 6 month old son, and I want to 
thank him for that.
    I served on the National Security Council's staff during 
the Clinton administration as Director for Transnational 
Threats and most of my responsibilities were focused on 
international terrorism. I think it is safe to say that during 
President Clinton's time in office concern about terrorism in 
general and terrorism involving weapons of mass destruction 
rose rapidly and became one of the foremost areas of activity 
and innovation.
    I would agree with the judgment of the Washington Post 
which Barton Gellman wrote on December 20, ``By any measure 
available, Clinton left office having given greater priority to 
terrorism than any president before him. His government doubled 
counterterrorist spending across 40 departments and agencies. 
The FBI and CIA allocated still larger increases in their 
budgets and personnel assignments.''
    I would add those increases took effect against a backdrop 
of flatline budgets at a time when we were working to balance 
the Federal budget and I don't think there is any other area in 
Federal spending of comparable size in which such a trend was 
visible.
    Nothing concerned the Clinton administration more than the 
dangers of WMD proliferation and the possibility of the 
terrible weapons falling into the hands of rogue states and 
terrorists. We could talk about all the various measures that 
were taken regarding Iraq, Iran and North Korea, some have 
already been mentioned. I would like to skip to the question of 
WMD falling into the hands of terrorists.
    This was something it was believed was not likely to happen 
precisely for the reasons that General Scowcroft outlined and I 
believe the general understanding he outlined was correct and 
continues to be basically correct for major states.
    However, things changed in the mid-1990's, first with the 
Aum Shinrikyo attack in Tokyo and with the rise of al-Qaeda. As 
you all recall, on August 20, 1998, the Clinton administration 
ordered the destruction of terrorist training camps in 
Afghanistan in response to the Embassy bombings and also the 
al-Shifa plant in Khartoum. I believe that sent as clear a 
signal that has ever been sent by the United States that this 
country would not tolerate WMD falling into the hands of 
terrorists.
    I think it is safe to say that in the aftermath of that, 
the administration took what might charitably be called a 
shellacking for its efforts. It was widely alleged that there 
were other motivations at work in the decision to attack 
Khartoum. What has not been widely discussed is the vindication 
of that strike that appeared during the embassy bombing trial 
last year in New York when an al-Qaeda defector noted 
repeatedly on the stand that in fact Osama bin Laden's 
organization was working to produce chemical weapons in 
Khartoum. This testimony was completely overlooked by the press 
and most experts.
    I have entered into the record an article I wrote about 
this in the New York Review of Books which appeared last fall. 
I think it is not going to far to say that if the al-Shifa 
attack had been taken more seriously, the public would have had 
a better notion of what al-Qaeda is about well before September 
11th.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.006
    
    [GRAPHIC] [TIFF OMITTED] T6195.007
    
    [GRAPHIC] [TIFF OMITTED] T6195.008
    
    [GRAPHIC] [TIFF OMITTED] T6195.009
    
    [GRAPHIC] [TIFF OMITTED] T6195.010
    
    [GRAPHIC] [TIFF OMITTED] T6195.011
    
    [GRAPHIC] [TIFF OMITTED] T6195.012
    
    [GRAPHIC] [TIFF OMITTED] T6195.013
    
    [GRAPHIC] [TIFF OMITTED] T6195.014
    
    [GRAPHIC] [TIFF OMITTED] T6195.015
    
    [GRAPHIC] [TIFF OMITTED] T6195.016
    
    Mr. Benjamin. I want to echo much of what General Scowcroft 
said about the multilateral approach to terrorism. I think it 
has enormous value much of the time and I think General 
Scowcroft in the first Bush administration showed great wisdom 
in following the course they did involving Pan Am 103. The 
determination of responsibility for that bombing came months 
after the act itself and after several rounds of tit for tat 
retaliations that were going no where with a country we had no 
intention going to war with by choosing a multilateral approach 
based on law enforcement and U.N. sanctions, the Bush 
administration laid the groundwork and the Clinton 
administration followed through in getting Libya out of the 
business of terrorism, however unsatisfactory some of its other 
behavior remains.
    I share the General's concerns about the need to keep 
allies in the game, that is to say, keep them working with us 
to cut our terrorist finances, to dry up safe havens and to 
provide the kind of intelligence cooperation is absolutely 
essential to make further operations impossible.
    About the evil axis, I have to say I am uncomfortable with 
the phrase. An axis, according to the dictionary, means an 
alliance or partnership. I don't think there is any evidence of 
a serious alliance or partnership between these countries. They 
all have, as Mr. Perle said, a great dislike for the United 
States and a desire to develop weapons of mass destruction. For 
that reason alone, they deserve the greatest vigilance and very 
proactive policy to deter them, change their behavior and in 
some cases, change the regime.
    However, I don't think they all deserve a cookie cutter 
approach. Iran and Iraq are very different and in fact, the 
conflict between them probably cost as many lives as any other 
in the last quarter century.
    The last point I would like to make is that there is a 
significant difference between terrorism in the shape of al-
Qaeda and terrorism of the state sponsored sort that we were 
familiar with and continue to be. There was a predominant 
paradigm in terrorism certainly up to the embassy bombings in 
1998.
    As General Scowcroft said, most states sponsors are not 
willing to give weapons of mass destruction to terrorists 
because of good prudential reasons. The terrorists we confront 
now are ones who have the wherewithal to find those weapons 
themselves and unlike the state sponsors, the rogue states, the 
members of the axis of evil, however you want to call them, 
these new terrorists are prepared to use these weapons. They do 
not want them for blackmail, they want to use them against us. 
They are not deterrable.
    The countries in the axis of evil may very well be 
deterrable and require a different policy but we should not 
make the mistake of thinking these terrorists, al-Qaeda in 
particular, exist because of the sufferance of these state 
sponsors. They do not. The evidence is very, very slim of 
connections between them. It is enough to be worrisome, it is 
enough to be worried and vigilant but the record is fairly 
clear that al-Qaeda is its own creation. We need to take it on 
those terms and we need to destroy it.
    I will stop there.
    [The prepared statement of Mr. Benjamin follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.017
    
    [GRAPHIC] [TIFF OMITTED] T6195.018
    
    [GRAPHIC] [TIFF OMITTED] T6195.019
    
    [GRAPHIC] [TIFF OMITTED] T6195.020
    
    [GRAPHIC] [TIFF OMITTED] T6195.021
    
    [GRAPHIC] [TIFF OMITTED] T6195.022
    
    [GRAPHIC] [TIFF OMITTED] T6195.023
    
    [GRAPHIC] [TIFF OMITTED] T6195.024
    
    Mr. Shays. Thank you.
    Mr. Carr.

       STATEMENT OF CALEB CARR, MILITARY HISTORIAN/AUTHOR

    Mr. Carr. Thank you also for your invitation to appear here 
with a group of people for whom I have the greatest respect.
    I have been asked here today as a military historian who 
spent much of the last 20 years studying terrorism to 
illuminate several principles that I believe can be derived 
from our past encounters and applied by the Bush administration 
to our present circumstances.
    To this end, I will limit my opening remarks to those 
principles leaving more detailed discussion of their 
application to specific situations for the discussion to 
follow. I will note here that all these points underlay our 
first truly effective antiterrorist action which was the Reagan 
administration's 1986 raid on Libyan leader Muammar Qaddafi 
already mentioned but then went into a period of dormancy so 
severe that it made a cataclysmic attack on the United States 
not only possible but likely. That dormancy only came to an end 
with our recent campaign in Afghanistan. I submit that we 
cannot afford another such period of inattention to this the 
most serious threat to the lives of American civilians since 
that of totalitarianism.
    The first principle I would recommend may come as something 
of a surprise to many for it is nothing more or less than that 
we define the problem in a way that is unarguable and binding. 
Strange as it may seem, most discussions of terrorism even now 
are undertaken without the parties agreeing to a clear 
definition of just what terrorism is. With this in mind, I 
offer the only definition that is consistent I believe with the 
full course of military history, that terrorism is the 
contemporary name given to and the modern permutation of 
deliberate assaults on civilians undertaken with the purpose of 
destroying their will to support either leaders or policies 
that the agents of such violence find objectionable.
    I am fully aware that there are those who are not 
comfortable with such a nonideological definition but I 
maintain that terrorism can be put to the service of any 
ideology and until we accept that fact, we have no hope of 
eradicating it.
    Terrorism is the contemporary name given to and the modern 
permutation of deliberation assaults on civilians undertaken 
with the purpose of destroying their will to support either 
leaders or policies that the agents of such violence find 
objectionable.
    This philosophy leads logically to my second point which is 
that this or any administration must always refuse to answer 
terror with what amounts to more terror. Our own experience 
during the 1990's with various antiterrorist actions that were 
less than discriminate in their blanket targeting of civilian 
areas in sponsor states, the current Israeli failure to make 
similar tactics work and the history of warfare over the last 
2,000 years generally show that deliberate attacks on civilians 
are more than just immoral, they are ultimately 
counterproductive, especially when undertaken in retaliation.
    Our recent campaign in Afghanistan on the other hand shows 
what dramatic success can be expected when extraordinary 
efforts are made to avoid such civilian casualties but that 
campaign has also echoed our earlier antiterrorist success, the 
Libya raid in emphasizing a third point which is that we need 
to maintain constant offensive readiness.
    One of the clearest lessons of the last 20 years, as well 
as of September 11th, is that when the United States is 
perceived as relying on primarily defensive or reactive 
measures to meet the terrorist threat, the intensity of 
terrorist attacks only increases. As is now painfully apparent, 
terrorism is indeed a form of warfare, not crime, though it may 
be criminal warfare.
    Such being the case, we will increase our chances for 
success by giving priority to offensively oriented strategies 
and tactics as indeed we will if we emphasize our ability to 
achieve surprise. It is well within the power of the United 
States to turn the tables on major terrorist organizations and 
their state sponsors by making them the ones to feel perpetual 
insecurity. Yet to do so, we must make sure that we base our 
efforts on progressive military principles rather than 
legalistic initiatives. By progressive, I mean discriminatory, 
capable of confining insofar as is humanly possible, the 
casualties we inflict to actual terrorist operatives.
    Before Afghanistan, there were many who said this was 
impossible but our daring special forces operations at the 
opening of that campaign prove such critics wrong and what gave 
those units the edge they needed was surprise, the principal 
tool by which appropriate targets can be designated and caught 
unawares.
    My fifth recommendation proceeds directly from this point. 
It is that we give greater priority to discriminatory tactical 
operations than to indiscriminate strategic campaigns. So-
called strategic bombing does not discriminate among targets on 
the ground enough to advance the American antiterrorist cause 
by limiting civilian casualties. In Afghanistan, it has not 
been our bombers but our special forces units that have done 
the most critical work. To do that work, the United States will 
often find itself in situation where it cannot pause for 
lengthy consultation with allies and so in the interest of 
consolidating this new style of warfare, it is vital that we be 
willing to act alone if necessary to achieve our objectives.
    Along with a host of other American responses to military 
threats throughout our Nation's history, the 1986 Libya raid 
would have been impossible had we taken the time to publicly 
and slowly build a coalition of allied forces. Coalition 
building is a fine and admirable thing, but it is also a 
luxury, a luxury that like so many others may be prohibitively 
expensive in the post-September 11th world.
    Should we find, however, that we can safely act in concert 
with other powers and forces, we nonetheless must not employ 
questionable agents or regimes in our cause simply because they 
are nominally antiterrorist. From the time of ancient Rome 
through the muslim and British empires and on into our own 
global fight against communism, history offers few clearer 
lessons than the philosophy which states that to fight a dirty 
enemy, one must become dirty oneself.
    We need look no further than the example of Osama bin 
Laden, former in the opinion of some, an Afghanistan freedom 
fighter, for evidence of this truth. As our antiterrorist 
umbrella continues to broaden, we must be increasingly 
circumspect about who we allow to take shelter beneath it.
    I will conclude with the suggestion that we ought in the 
current highly fluid state of affairs be prepared to negotiate 
with former state sponsors of terrorism when events on the 
battlefield change diplomatic conditions.
    As a result of our successful efforts in Afghanistan to 
execute a strategy of eliminating a terrorist regime without 
causing massive, counterproductive civilian casualties, new 
diplomatic opportunities have been made available to us in the 
Middle East vis a vis long time antagonists and is always the 
case with war, we must recognize when to exploit these 
opportunities rather than pursue perpetual military action.
    I realize the subcommittee would also like us to express 
our views on how the Bush administration should approach what 
he has dubbed the axis of evil nations. I think that is best 
left, as I said, for your questions. I will just note as one or 
two speakers have already said, while it is true that history 
is unkind to those who ignore it, it is also true that it can 
be even more unkind to those who draw fallacious historical 
parallels.
    Personally, I find the phrase ``axis of evil'' a misleading 
one. Axis, as just said, calls to mind, as I think it is 
intended to, the combination of totalitarian powers during the 
Second World War but no such formalized concert of effort 
exists among the three countries named by President Bush. North 
Korea, Iran and Iraq do each present the United States with 
undeniable problems but they are separate and distinct sorts of 
problems requiring separate and distinct approaches.
    We can safely say, however, that all such approaches must 
reflect our newly, reenergized emphasis on tactics that are 
both aggressive and progressive, that seek to both protect 
American civilians and to limit the impact of confrontation on 
civilians and enemy countries.
    Thank you.
    [The prepared statement of Mr. Carr follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.025
    
    [GRAPHIC] [TIFF OMITTED] T6195.026
    
    [GRAPHIC] [TIFF OMITTED] T6195.027
    
    [GRAPHIC] [TIFF OMITTED] T6195.028
    
    [GRAPHIC] [TIFF OMITTED] T6195.029
    
    [GRAPHIC] [TIFF OMITTED] T6195.030
    
    [GRAPHIC] [TIFF OMITTED] T6195.031
    
    [GRAPHIC] [TIFF OMITTED] T6195.032
    
    [GRAPHIC] [TIFF OMITTED] T6195.033
    
    [GRAPHIC] [TIFF OMITTED] T6195.034
    
    [GRAPHIC] [TIFF OMITTED] T6195.035
    
    [GRAPHIC] [TIFF OMITTED] T6195.036
    
    [GRAPHIC] [TIFF OMITTED] T6195.037
    
    [GRAPHIC] [TIFF OMITTED] T6195.038
    
    [GRAPHIC] [TIFF OMITTED] T6195.039
    
    [GRAPHIC] [TIFF OMITTED] T6195.040
    
    [GRAPHIC] [TIFF OMITTED] T6195.041
    
    [GRAPHIC] [TIFF OMITTED] T6195.042
    
    [GRAPHIC] [TIFF OMITTED] T6195.043
    
    [GRAPHIC] [TIFF OMITTED] T6195.044
    
    [GRAPHIC] [TIFF OMITTED] T6195.045
    
    [GRAPHIC] [TIFF OMITTED] T6195.046
    
    [GRAPHIC] [TIFF OMITTED] T6195.047
    
    [GRAPHIC] [TIFF OMITTED] T6195.048
    
    [GRAPHIC] [TIFF OMITTED] T6195.049
    
    [GRAPHIC] [TIFF OMITTED] T6195.050
    
    [GRAPHIC] [TIFF OMITTED] T6195.051
    
    [GRAPHIC] [TIFF OMITTED] T6195.052
    
    [GRAPHIC] [TIFF OMITTED] T6195.053
    
    [GRAPHIC] [TIFF OMITTED] T6195.054
    
    [GRAPHIC] [TIFF OMITTED] T6195.055
    
    Mr. Shays. Thank you to all four of you.
    We are going to start with Mr. Gilman. I am going to just 
express an interest that my hope is that we will have some 
extensive dialog among all of you with regards to when is it 
appropriate--and you mention it in your presentations--to act 
unilaterally, when is it appropriate to work on a multilateral 
basis.
    I think we could debate this issue of axis and I think the 
axis part does raise some other interesting questions but if 
you take axis out, the issue I hope we focus on is identifying 
a Nation as evil and therefore a target, what does it enable us 
to do and what does it prohibit us from doing? Ultimately what 
does is the benefit of identifying these nations? I hope we 
will have the ability to have some dialog about that.
    I also want to thank Mr. Putnam for coming. He is the vice-
chairman of this committee and quite often has taken over when 
I haven't been around and unfortunately does a better job, 
according to everyone who watches him. I limited his time in 
the chair recently.
    Mr. Gilman.
    Mr. Gilman. I want to thank the panelists for their 
testimony.
    Iran, Iraq, North Korea and Syria have been contributing 
arms and funds to terrorists in the Middle East. How best can 
we curb that support of terrorism? What is the most effective 
thing we can be doing? I address that to the whole panel?
    Mr. Shays. We will have 10 minutes as we gave our speakers 
5 minutes.
    Mr. Perle. Congressman Gilman, I think the best way to 
discourage them is to increase the price they pay for what they 
do. Until now, they have paid a very small price, if any. Take 
Syria for example. Syria has been in one way or another 
supporting terrorism for a very long time. There are any number 
of terrorist organizations if you want to meet them, you go to 
the Bekaa Valley which is under Syrian control or even to 
Damascus itself.
    I think it is time, long overdue for us, to say to Mr. Asad 
that this isn't tolerable because the war against terrorism is 
a global war. If we start choosing between those terrorists we 
will oppose and those that we will turn a blind eye to, in the 
end we will be consumed by terrorists. I think we ought to put 
it very squarely to Asad.
    With respect to Iran, I don't think there is any question 
about Iran's involvement in fueling instability in the Middle 
East and encouraging attacks on Israel and others. I think when 
all the evidence is in front of us, we will find Iran, working 
with terrorist organizations, has directly attacked American 
interests and killed Americans. The same holds for Saddam 
Hussein.
    North Korea bears a relationship to these others as a 
supplier. I don't know that anyone at this table would disagree 
that the North Koreans are assisting the Iraqis and assisting 
the Iranians in development of their weapons. We know some of 
that--my guess is there is a great deal of assistance of that 
sort that we have not yet seen.
    At the end of the day, I think we have to raise the price 
for this sort of indulging in the support of terrorism and up 
to now, we haven't done that.
    Mr. Gilman. What sort of a price are you suggesting?
    Mr. Perle. We have destroyed the Taliban regime in 
Afghanistan. I hope, as I indicated earlier, that we will go on 
to make sure that Saddam Hussein's regime is destroyed in Iraq. 
At that point, the message to Syria ought to be, you are next. 
That is to say, we will not tolerate regimes that support 
terrorism and precisely how we go about raising that price is 
going to vary from one case to another. I don't know anyone who 
is suggesting a cookie cutter approach. Iran is different from 
Iraq which is different from North Korea and Syria, to be sure, 
so in each case, the approach must be a different one.
    If you look at Syria, its military capabilities are 
concentrated in a very small number of highly vulnerable 
installations. I might couple the words, you are next, with 
some vision of how quickly those military capabilities could be 
obliterated.
    Mr. Gilman. Thank you. Any other panelist? General 
Scowcroft.
    General Scowcroft. I have a slightly different perspective, 
Mr. Gilman. All of the regimes we are talking about are 
problems, there is no question about it but I think we have to 
set priorities. We cannot do everything at once. We now have 
troops in Bosnia, we have troops in Kosovo, we have troops in 
Afghanistan, we have troops in the Philippines, we gave troops 
in Georgia. We do not have unlimited capability and it seems to 
me we have to focus on those tasks that need to be done first.
    My sense is that the four countries you talk about are 
problems but they are not problems primarily because of 
terrorism. Syria might be an exception to that but remember, 
the President, when he declared war on terrorism, he declared 
war on terrorism with a global reach. If we go after Irish 
terrorists, Colombian terrorists and all the other terrorists 
that have limited regional goals at once, we are going to 
drown. We cannot do it.
    We have a tremendous job ahead of us to deal with al-Qaeda. 
It is going to take years, it is going to take hard, patient 
work to root out that bunch of terrorists. If in the meantime 
we have a problem with Iraq, with Iran or something, we would 
have to deal with it but I think we cannot take all of these on 
simultaneously or we will not do any of them satisfactorily.
    Mr. Gilman. Thank you, General Scowcroft.
    Any other panelist? Yes, Mr. Carr.
    Mr. Carr. I wanted to add to echo the sentiment that I 
think there are specific ways in which each of these policies 
should differ. We have had more luck in some of these cases 
with different kinds of policies. With North Korea, we have had 
more luck with using a carrot and stick approach than we have 
with using purely the stick. It is a very truculent society and 
government and they don't tend to respond well to pure threats.
    The other ruling factor about North Korea is that they are 
starving. They need things from us besides threats and we can 
use that against them.
    In the case of Iran and Iraq, that is not quite the case. 
In Iran, I do think, as Mr. Perle said, we have to paint a very 
clear picture for Iran of what exactly militarily could be the 
consequences of continued behavior. I also think we have to 
realize that in Iran, we are experiencing something, as we are 
experiencing around the world, that we are perhaps too little 
appreciative of, the unofficial cultural penetration that we 
are achieving in the country which needs to be allowed to 
continue, especially among younger Iranians. That is a slightly 
different approach.
    With Iraq, I am afraid I have unqualified agreement with 
Mr. Perle, I don't think there is any picture you can paint for 
Iraq except a forceful response. I think it is one you don't 
have to paint, you have to carry through. The only 
qualification would be is it Iraq you are talking about or 
Saddam Hussein? Again, I think definitions are hugely 
important. Saddam Hussein is not Iraq, vice versa. We have seen 
the cost of making the Iraqi people pay for Saddam Hussein's 
mistakes. We have created a lot of new enemies there over the 
last 10 years.
    Mr. Gilman. Mr. Benjamin.
    Mr. Benjamin. Mostly I would like to echo or align myself 
with what General Scowcroft said. I would like to elaborate by 
saying it is very important as we go forward that we have our 
concepts and categories clear in our minds. There are countries 
that pose long term challenges that are problem countries that 
we need to deal with and there are problems that are 
existential that face us here and now. al-Qaeda is an 
existential problem.
    Were the United States to experience another terrorist 
attack along the lines of September 11th, it would have a 
devastating impact on morale in this country. Were al-Qaeda to 
pull off the kind of attack they have talked about, multiple 
attacks in the United States over a short period of time, it 
would really be incalculable the kind of effect it would have.
    We have policies for dealing with these three countries of 
varying suitability. We may want to finetune them, we may want 
to change some of them. The issue of regime change in Iraq is a 
very serious one that I believe is being debated in the country 
right now. Wherever we come out on those individual policies, I 
think we need to recognize those countries are in a different 
category from al-Qaeda.
    Mr. Gilman. Mr. Perle.
    Mr. Perle. Just to be clear about a point that has emerged, 
I yield to General Scowcroft's wisdom here. I am not suggesting 
that we strike out in some way against a long list of countries 
simultaneously. I think the right approach was to deal with 
first things first and that was the Taliban which turned 
Afghanistan into the world's largest facility for the 
nurturing, support, recruitment, training and dispatch of 
terrorists. We had to do that.
    In destroying the Taliban regime, we sent a message of 
great importance that if you allow your country to be used in 
this way, your regime is at risk. And I think others are now 
reconsidering whether it is in their interest to be hospitable 
to terrorists. Even Yemen is now asking what they can do to 
demonstrate that they really are not friendly to terrorists.
    So the direction is correct. I think Saddam will add, the 
removal of Saddam, and it is Saddam and not Iraq, the removal 
of Saddam will add significantly to the momentum of the anti-
terrorist tide. So I think that's very important.
    I would finally just say that I agree entirely with Mr. 
Carr, what is going on in Iran today is very interesting. I am 
certainly not suggesting we launch military action against 
Iran. What we should be doing is encouraging the young people 
of Iran who are fed up with the miserable regime that dominates 
their lives. There are a variety of ways in which we could 
support and encourage them. I think there's a reasonable chance 
we will see a new and much more civilized regime in Iran.
    But I don't think the way to do it is to pretend that 
Khatami is going to prevail over the mullahs who are now 
running Iraq.
    Mr. Gilman. Mr. Carr.
    Mr. Carr. I just wanted to clarify one related point, about 
the Afghan campaign, which I think this has been under-
appreciated in the press and everywhere, I think. The 
revolutionary nature of what we've done in Afghanistan is to 
state to these regimes that we can now, we have found a way 
that we can remove your regime without punishing your 
population.
    That is the key to this whole campaign, because that's what 
brought the Afghan people onto our side, and that's what's made 
people like Saddam and the leaders of Iran and in Syria worried 
now. They suddenly realize that we no longer, they've been 
hiding behind their civilian populations for years, allowing us 
to punish civilians. They don't care what happens to their 
civilians. We end up punishing their civilians.
    We've now told them, we no longer have to punish your 
civilians.
    Mr. Gilman. Thank you, panelists, and thank you, Mr. 
Chairman.
    Mr. Shays. Thank you. We'll get another round.
    Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman.
    I'd like to open with a question beginning with General 
Scowcroft, but throw it open to the entire panel. We face what 
I would characterize as the Saudi paradox. We have one of the 
more advanced economies of the Middle East, a tremendous 
supplier of the Nation's oil and home base for our troops in 
the region, versus this hotbed of militant Islam and home of 
the vast majority of the hijackers involved in the September 
11th attacks.
    How do we deal with the Saudi government? What is the best 
posture for our future relationship with that nation?
    General Scowcroft. Thank you, Mr. Putnam. We have among our 
friends and allies some very complicated regimes. I think we 
need to look carefully and deal with them each one according to 
the character of its regime. The whole region of the Middle 
East is in a state of transition. If one looks at the growth 
rates of the region, one finds that despite the tremendous oil 
income, growth rates are very, very poor.
    The states of the region are having great difficulties 
grappling with representative democracy. And I think we need to 
encourage the evolution of these societies, both in terms of 
genuine market economies and in terms of participative 
democracies. But with due regard for their own cultural 
differences and with a pace at which they can sustain these 
changes.
    I think one of the fundamental problems that we face, and 
that encourages terrorism, is the fact of rapid change in the 
world, of globalization, in fact. In 1945, there were 51 
members of the U.N. There are now 190 members of the U.N. Most 
of them are weak, poor, unable to cope with the forces around 
them, the forces of information technology and so on are 
swamping them. We need to figure out better ways to help 
countries make this adjustment. I don't know what they are.
    But I think the Saudi regime is one which has in a way made 
a deal with radical or fundamental Islam, that they can preach 
whatever they want as long as they don't act inside Saudi 
territory. That in the long run of course is a destructive 
bargain. And we ought to encourage the Saudis to look objective 
at their situation and to draw a conclusion from it.
    Mr. Perle. I certainly agree with what General Scowcroft 
has just said. For a number of years now, the Saudis have been 
funding pretty lavishly a network of institutions, religious, 
educational, foundations that have been preaching violence and 
hatred against the West and against the United States. If you 
do that year after year, and if thousands of people pass 
through those facilities, you will ultimately create a 
significant population of potential terrorists.
    That unfortunately is what has happened. In the Madrases in 
Pakistan, many of which are financed by the Saudis, these young 
men, boys, really, 17, 16, 18, enroll and they spend the next 4 
to 5 years living on bread and water and getting 18 hours, 24 
hours a day of the most violent, anti-Western, anti-democratic, 
anti-non-Muslim indoctrination. They have no contact with 
women, virtually none with the outside world.
    By the time they leave those places, these are deformed 
personalities, capable of violence, indeed, intent on violence. 
They return to the countries from which they have come, which 
includes a significant fraction of the 190 members of the 
United Nations. They are time bombs in every one of their 
societies, waiting to explode.
    We had better understand that, and understand it now. And 
as a minimum, we must appeal to the Saudis and the other 
sources of funding to recognize that in the end they will be 
consumed by the flames that they have been feeding. But whether 
they accept that explanation or not, we should be using every 
instrument available to us to discourage the perpetuation of 
this massive training ground for potential terrorists.
    Mr. Benjamin. I agree with a great deal of what has been 
said. I think it's important to keep in mind, that the Saudi 
state has had something of a contradiction at its heart, it is 
dedicated to two goals. One is the Saudi royal family, or the 
flourishing and the future of the Saudi royal family, and the 
promulgation of Wahabbi Islam. Those two were going on, in a 
sense, in two very different channels.
    As a result, the authorities were not spending the time 
necessary, or had developed the regulatory apparatus necessary 
to monitor what was going on, which was the funneling of large 
amounts of money through state supported NGO's all over the 
world. As a result, we have the Al-Qaeda threat and we have 
radical Muslimism in many different countries.
    I think that most of the ruling authorities in Saudi Arabia 
have come to recognize that they have potentially sown the 
seeds for their own destruction. We need to encourage them to 
continue improving their oversight of these NGO's and of 
schools and the like within the kingdom as well. I think that 
one place where the United States has not done as well as it 
could have is in talking to the Saudis about what appears in 
their press and what appears in their textbooks. Both of these 
are a source of enormous radicalization, if you will.
    For many years, and quite understandably, we in the United 
States have made a sort of bargain with what we call the 
moderate Arab regimes in the region, and that is if they would 
support the Middle East peace process, we would not make too 
many noises about democratization and about incitement, the 
newspapers and what goes on in the schools. I think now we 
realize that we can no longer afford to shortchange the second 
set of issues, because what has been fanned is not just anti-
Israel sentiment, bad as that might be, but anti-Western 
sentiment that ultimately poses the long term threat to a 
peaceful world.
    Mr. Putnam. Mr. Carr, you in your fourth principle of 
counterterrorism, emphasizing the ability to achieve surprise, 
you say that to achieve this goal we would be forced to forego 
legal niceties in order to effect the kind of surprise that 
permits greater discrimination in operations. Most of the 
discussion today has centered on the roots of terrorism, 
predominantly in the Middle East. But when you have terror 
cells in the homeland, which legal niceties would you recommend 
that we forego, and which would you say----
    Mr. Carr. I would have to say that when we deal with 
domestic questions and international questions, we're dealing 
with two entirely different animals. I think that we saw and 
experienced this fall with the preliminary, what some people 
characterized as breach of constitutional rights, but which 
really was just experimentation with new methods of trying to 
secure a country in what was understandably an atmosphere of 
panic, I think we saw very quickly that most of the legal 
institutions domestically that are in place right now are 
sufficient to handle the greater part of the problem of 
terrorists within this country.
    And indeed, something that I've written quite a bit about 
is the notion of the fall roundup of anyone even suspected of 
involvement in terrorist cells undid a great deal of work that 
was done over the last 20 years by the FBI, a great deal of 
infiltration work, a great many terrorist cell operatives went 
to ground, a great many double agents had their cover blown by 
it. And we to date have exposed exactly zero cells in this 
country through that method.
    So I think that domestically, we're talking about a 
different animal. When I say not observing legal niceties, I'm 
talking about in the international realm. I think it's very 
important to make a distinction there.
    If I may just address your question for 1 second on Saudi 
Arabia, I think it continues to be one of the most fatuous 
pieces of diplomatic imagination to keep characterizing Saudi 
Arabia as a moderate Arab regime. Even a cursory examination of 
the history of the Islamic empires and kingdoms shows that 
Islamic fundamentalism has always come out of Saudi Arabia. 
They have always been engaged, Mr. Benjamin just mentioned the 
Wahabbi sect, which has existed for hundreds of years. They 
have always been at the center for this kind of philosophy, and 
they've always lied very well about it to a succession of 
antagonists, and most recently us.
    I think at the same time that there are complaints that the 
average Saudi, and indeed the average Muslim, has about our 
presence in Saudi Arabia that are very legitimate and require 
attention. The presence of U.S. soldiers so close to what is 
holy ground for all Muslims is a deeply troubling question that 
doesn't get enough attention, I feel, among American 
policymakers.
    Mr. Putnam. Thank you. Thank you, Mr. Chairman.
    Mr. Shays. Thank you, gentlemen.
    I am thrilled you all are here, and I am thrilled that 
we've having this hearing. Because I've done a lot of thinking 
about the concepts that you all have done absolutely a 
tremendous amount of thinking about. I've tried to understand 
the impact. I basically think we are in a race with terrorists 
to shut them down before they use weapons of mass destruction. 
I believe it's not a question of if, it's a question of when, 
where and of what magnitude.
    I believe that the administration has to prepare the 
American people for the potential that weapons of mass 
destruction will be used in this country, so that if they 
happen, we can absorb them in a mature way, and also because it 
helps explain to people why we've made arrests, why we've had 
wire tapping, why we negated the attorney-client privilege, and 
why we made tribunals to not disclose sources and methods.
    But you did kind of jar me, Mr. Carr, because I had been a 
fan of the arrests, because I know we did it during the Gulf 
War, I know we did it during the millennium and I know we did 
it now. I always viewed it as putting the terrorists on defense 
rather than offense. You arrest someone in the cell, even if 
you don't know what cell they're a part of, and the rest of the 
cell has to hide. So don't you think if we hadn't made those 
arrests that we would be dealing with terrorist attacks today?
    Mr. Carr. As I said, Mr. Chairman, I find the motivation 
for the arrests extremely understandable. I have to judge by 
result. The administration itself is willing to admit, in the 
pages of Time Magazine, which I found rather extraordinary, 
that they've been able to crack exactly zero cells in the time 
that they've been making these arrests. Whereas, the policy 
before, we had a lot more progress.
    Mr. Shays. Well, but see you, believe what you read in the 
press.
    Mr. Carr. I believe Karen Hughes.
    Mr. Shays. But you know, I believe that the smartest thing 
they could say is they've made no progress. But I do think that 
it has put them on defense. Because the cell can't order them, 
if their members have been arrested, they go into hiding. 
That's kind of like a basic tenet. Now, how long we can stretch 
that out, but it has given us, I thought, a little breathing 
room. Any of you have a view? Mr. Benjamin, then we'll go to 
the General.
    Mr. Benjamin. We're in some ways uncharted territory in 
terms of dealing with a foreign terrorist in the United States. 
Because the evidence to date is that the perpetrators of 
September 11th never connected with the local infrastructure. 
This is what the FBI is telling us, they've conducted thousands 
of interviews, in addition to all the people who were detained.
    This is, to my mind, an enormously worrisome development.
    Mr. Shays. What is the worrisome development?
    Mr. Benjamin. That we had the operators, the 19, come into 
this country, live off the land and carry out their terrorist 
attacks without the support of an indigenous infrastructure, 
without there being any cells in place. That's a revolution in 
trade craft. And to carry out something like that suggests that 
the terrorists are a couple of steps ahead of our abilities 
when it comes to intelligence and law enforcement.
    Mr. Shays. Or it makes an assumption that the terrorists 
have been at war for 20 to 30 years and we just didn't know it. 
Has that base been in a university of terrorism, they've been 
practicing without our paying attention.
    Mr. Benjamin. This group has been practicing or thinking 
about these kinds of attacks for a decade. I think we know that 
from both the intelligence and the law enforcement records. 
This particular attack was of course something that no one had 
imagined before, and I don't think anyone really imagined it 
before the late 1990's.
    But I think that the critical fact here is that in an era 
of globalization, of open borders and the movement of people, 
ideas and capital, if they can come into our country and do 
that with that kind of ease, without being detected, we have an 
enormous amount of catching up to do in terms of our law 
enforcement techniques.
    Mr. Shays. General.
    General Scowcroft. Yes, Mr. Chairman. I think it's 
dangerous to assume that our structures seem to be OK for 
operating domestically. I think it's instructive that on 
September 10th, we knew almost nothing about any of the people 
who were active on September 11th. By September 13th, we knew a 
great deal about them. The information was there, we didn't 
have it. And I think that's partly due to our structures. We 
have a handoff between the CIA and the FBI about when you cross 
the borders of the United States.
    Now, the FBI does a wonderful job in crime, in law 
enforcement. But law enforcement is not an intelligence 
operation. And these people existed in the United States for 
several years because they didn't do anything to bring them to 
the attention of the FBI. They didn't violate any laws, they 
didn't do anything which would make them a target for the FBI.
    An intelligence operative, on the other hand, looks for 
signs, looks for indications around and puts them together into 
a pattern which helps you anticipate what might happen. Law 
enforcement starts when something happens and backs up and 
says, who did it. I think we have a problem here that we have 
not dealt with adequately yet.
    Mr. Shays. I do not disagree with that. I think that's 
true. I believe, though, just based on the hearings we have had 
that if we had listened to what they said in Arabic, we would 
have been aware that we were under attack, that there were 
people designed to target the Twin Towers and so on, I mean, 
how they did it. I think that as we just simply take what has 
been on TV and in the Middle East, written documents, we would 
have known a heck of a lot.
    General Scowcroft. But that's not the job of the FBI. The 
job of the FBI is to enforce laws, primarily. Now, they've 
turned, their national security division is responsible for 
intelligence like that. But they're trained in law enforcement 
and they do not have the cast of mind that a CIA analyst, for 
example, would have. And that is a problem that, we need to 
fuse our collection domestically in a way that enables us to 
use the talents of intelligence analysts rather than law 
enforcement.
    Mr. Shays. Let me just start with you on the questions that 
I was going to begin. When Chairman Gilman and I were here 
during the Gulf War, we watched the President just begin to 
bring nations together. But my recollection is that in order 
for the administration to get this group of nations and group 
of members, Republicans and Democrats, to support the effort, 
there was basically a pledge that our effort was to get Iraq 
out of Kuwait, but not to go into Baghdad. And that there was 
in a sense an agreement that we would not go into Baghdad.
    Is my recollection correct?
    General Scowcroft. I don't think so, Mr. Chairman. There 
was no--the mission given to the United States by the United 
Nations was to free Kuwait. There is no question about that. It 
did not go beyond that. But it did not certainly prescribe us 
going on to Baghdad. I think had we done so, there would have 
been a lot of consequences.
    Mr. Shays. I know that some members voted on the condition 
that we would not. In other words, they were going to support 
the effort of getting Iraq out of Kuwait. And the reason I'm 
asking the question is that I get a sense that this President 
is willing to make no agreement that in any way inhibits us 
from taking unilateral action if we need to.
    General Scowcroft. Well, let me just say, I don't know what 
was in the mind or even in some of the debate on the 
resolutions which passed authorizing all necessary means. But 
if you remember, I believe it passed the Senate by seven votes, 
even with the very narrow understanding of had the President 
said, I'll do what I want and whatever I want. That was one of 
the hardest struggles that I remember in the administration, 
was to get the votes in the Senate.
    Mr. Shays. I gave a very moving speech to me at 3:30 in the 
morning, to no one else, though. I remember being on the Floor 
because this was an issue that was deeply troubling for me, 
having not been in Vietnam and trying to sort this out, and 
voting with conviction that we needed to do it, by the time I 
voted, but listening to all the members. It was clearly a sense 
that we had an objective and we would achieve that objective 
and then we would get on with it.
    Mr. Perle, do you have anything to add to this issue?
    Mr. Perle. I think there clearly was a very substantial 
intelligence failure prior to September 11th. As General 
Scowcroft has observed, a great deal of information was 
available to us, it simply wasn't analyzed effectively, 
properly and in a timely fashion. And I'm not sure we've fixed 
that problem.
    With respect to 1991, my own view is that we should have 
continued a little longer. I don't think it was necessary to go 
to Baghdad. I think it was necessary to destroy the Republican 
Guard as a cohesive military unit. My recollection is we had a 
significant element of the Republican Guard in such a position 
that had we chosen to do so, they would have been forced either 
to abandon their mechanized forces and walk back to Baghdad, or 
we could have destroyed them, and we chose not to do so.
    I think one of the reasons is that we wrongly assumed that 
Saddam Hussein couldn't survive the defeat that had been 
inflicted on him. Hindsight has some benefits. I don't know how 
General Scowcroft feels, but I know others who were involved at 
the time, had they known that Saddam would be here in 2002, 
might well have been willing at least to exert that additional 
pressure on the Republican Guard.
    Mr. Shays. Before I recognize Mr. Gilman, I want you to 
speak to the concept of multilateral versus unilateral, any of 
you. I want to know should we always preserve the ability to 
act unilaterally and do you anticipate that we will have to?
    General Scowcroft. My general rule would be act 
multilaterally whenever you can, act unilaterally when you 
must. That is not a sharp dividing line.
    Our friends will understand if sometimes we have to do 
things that they are not in full accord with but we don't want 
to have to operate in a world which is generally hostile to the 
United States in anything it does because we act with arrogance 
and unilateralism and pay no attention to our friends.
    It was a pain in the neck to have 31 coalition members 
assembled for the Gulf War that we had to care for, feed, so on 
and so forth. Was it worth it? I think it was highly worth it 
because for the time we needed, we had a very effective 
coalition. Could we have held it together a long time? I don't 
know but there are benefits to multilateralism that with the 
exception of a few cases, are worth the restrictions on the 
freedom of action over the long run.
    Mr. Shays. Your definition is helpful to me. Mr. Perle.
    Mr. Perle. I certainly agree that wherever we can act in 
concert with friends and allies, we should. We must be prepared 
to act alone or we will never be able to form coalitions for 
the purposes we intend. Coalitions are a means to an end, they 
are not an end in themselves.
    Mr. Shays. Is the implication in your answer that if they 
know we are going to act unilaterally, we might get 
multilateral cooperation?
    Mr. Perle. I think we are more likely to get multilateral 
cooperation, particularly where others believe if we act 
unilaterally, that could be worse for them than if they 
collaborate with us. So in a sense it is a matter of exerting 
leverage on potential partners.
    At the end of the day, there are two driving factors you 
mustn't forget. One is their interests are never going to be 
identical to ours. They may be similar, they may be very close 
but they are not identical. The citizens of Rotterdam are not 
threatened in quite the way the citizens of New York are 
threatened today. So other governments are going to react 
differently, particularly in their willingness to accept risks 
because even if their willingness to take risk is identical to 
ours, if the threat is less, then their actual behavior is 
going to be less forward leaning, if I can put it that way.
    There is a second difference and it is a very troubling 
one, and it is getting worse. That is as American military 
capabilities improve, and they are improving dramatically and 
we have seen only the beginning. Mr. Carr was right to refer to 
our ability with great precision to target only the things we 
wish to destroy, something we have never been able to do in the 
history of warfare, never been able to see the battlefield 
clearly enough, much less confine lethal effects to very 
precise targets with a real economy in force.
    As our ability to do that grows, and it is growing daily, 
and that of our allies doesn't, our ability to fight alongside 
one another when it comes to military action, is very limited. 
Even now we can conduct air operations with minimal risk to our 
pilots because we have stealthy aircraft. Some of our allies 
don't. If they fly over the same battlefield, they have a much 
higher risk of being shot down than we do. So this gap in 
military capabilities is ultimately a real challenge to our 
ability to maintain coalitions when it comes to military 
action.
    Mr. Shays. I want to get to Mr. Gilman, but I would like 
both you, Mr. Benjamin and Mr. Carr, to respond.
    Mr. Benjamin. The points that have been made are very good 
ones and interoperability, for example, is a growing problem in 
U.S./Allied military cooperation. We have looked thus far at 
the question of multilateral strictly or primarily through a 
military lens. I think one thing we need to keep in mind when 
we are dealing with terrorism is that military considerations 
are not the only ones.
    The coalition that was built to liberate Kuwait was built 
primarily I believe, and General Scowcroft can correct me if I 
am wrong, to confer as much possible legitimacy on the 
operation as possible. That is a very important matter but when 
we talk about building coalitions for combatting terrorism, we 
are also talking about the safety of Americans because if the 
terrorists continue to base themselves with impunity in 
continental Europe or in London, which is really the capital of 
Jihad today outside of Afghanistan, then Americans are not 
going to be safe because they can have access to our country 
from there. If they can use European banking systems without 
there being adequate surveillance, Americans are not going to 
be safe.
    It is very important that we work on building these 
coalitions. I think it is also important that America invest 
the time and effort to make it clear that the citizens of 
Rotterdam are threatened, if not as immediately as those of New 
York right now, they will be over the long term because the 
west is the enemy as far as al-Qaeda is concerned and as 
America becomes more difficult to attack, Europe will become a 
riper target.
    Mr. Shays. Mr. Carr.
    Mr. Carr. I think I can use, as I think I should in my role 
here, historical examples that we have been discussing, I think 
with a comparative acting unilaterally with a comparative 
handful of tactical aircraft, the Reagan administration was 
able to produce a more profoundly inhibiting effect on Muammar 
Qaddafi than was produced on Saddam Hussein with an armada and 
an expeditionary force.
    I think there is a central flaw in a lot of alliance 
politics with these kind of military actions in that we refuse, 
to the public, I don't know what went on behind closed doors, 
but the public was not made aware during the Gulf War of who 
exactly the enemy was. We were told we were against the 
invasion of Kuwait but you can't really go to war with an 
action, you have to go to war with either a people or a leader. 
We were told we were not at war with the Iraqi people but we 
don't go to war with particular leaders. That didn't leave 
anything except an action. We needed to be told that we were at 
war with Saddam Hussein. If we had gone on that basis, I 
believe we could have achieved something closer to what we 
achieved in Libya in 1986.
    Mr. Shays. General Scowcroft.
    General Scowcroft. Just a short comment. What we achieved 
in 1986 was hardly as wholesale as Mr. Carr suggests. In 1988, 
Pan Am 103 was perpetrated by Qaddafi.
    Mr. Carr. It was perpetrated by Libyans and we don't know 
exactly. General Scowcroft knows far more than I do.
    Mr. Shays. Are you going to defer to his wisdom like Mr. 
Perle has?
    Mr. Carr. It was perpetrated by Libyans, we know.
    Mr. Shays. I think one of the phrases that will ring in my 
ear, I am going to teach my daughter, defer Mr. Perle to Mr. 
Scowcroft's wisdom, so I will teach my daughter to defer to my 
wisdom. Good luck.
    Mr. Perle. It doesn't work with offspring. [Laughter.]
    Mr. Shays. Mr. Gilman, thank you for your patience.
    Mr. Gilman. One last issue. General Scowcroft pointed out 
the problems of not having adequate intelligence or quality 
intelligence. The Afghanistan attack I think focused on the 
need for better human intelligence. Have we cured that? What 
more should we be doing to get better quality intelligence? We 
have so many nations out there harboring terrorists, exporting 
terrorists, exporting arms and finances to terrorist 
organizations. What should we be doing to improve our 
intelligence basis if we are going to contain all of this?
    General Scowcroft. I think first of all, we need to 
significantly rebuild our human intelligence capabilities 
within the CIA. They have been attacked and let erode for a 
long, long time. Indeed, in many respects, people said that is 
an activity that has passed. It has not passed, it is extremely 
important in our ability to get inside these terrorist 
networks.
    It won't be done quickly though. It is long and it is hard 
and we have to have patience and we have to be prepared to do 
things and work with people that perhaps are less savory than 
Mr. Carr suggests we always ought to deal with.
    Mr. Gilman. Mr. Perle, what are your thoughts about what we 
should be doing with the intelligence?
    Mr. Perle. I believe that we could have done better with 
greater focus. Richard Reed managed to do his time in 
Afghanistan and so did the young American, I have forgotten his 
name. You could as well have inserted an American who was in 
fact working for us.
    I don't want to be cavalier in the criticism but I think it 
was a lack of focus, frankly. I think it was a failure to 
appreciate the magnitude of the problem. I am afraid the sad 
truth is until September 11th, as a Nation, we believed that 
the investment we were making in combatting terror, the money, 
the organization, the inconvenience we accepted on our own 
citizens, was about appropriate to the magnitude of the threat. 
That is the only way you can interpret a policy which had 
existed for many years.
    Now we know that we gravely underestimated how much damage 
could be done and in retrospect, it looks as though we should 
have done a great deal more before September 11th but we were 
content with what we were doing at that time by and large and 
did not believe it was necessary to take more aggressive, more 
costly, more intrusive action.
    I debated this issue and if there is any interest, we can 
insert it in the record, with Stansfield Turner almost 5 years 
ago and the topic was, should we do more, should we be more 
willing to use military force to combat terrorism? He was dead 
set against it. He thought what we were doing was about right 
and he had some years of running the CIA. I think that was the 
prevailing attitude in the intelligence community. The number 
of people at the CIA who were working on counterterrorism is 
probably a classified number but you would be shocked at how 
small it was before September 11th.
    Mr. Shays. We will insert that for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6195.056
    
    [GRAPHIC] [TIFF OMITTED] T6195.057
    
    [GRAPHIC] [TIFF OMITTED] T6195.058
    
    [GRAPHIC] [TIFF OMITTED] T6195.059
    
    [GRAPHIC] [TIFF OMITTED] T6195.060
    
    [GRAPHIC] [TIFF OMITTED] T6195.061
    
    [GRAPHIC] [TIFF OMITTED] T6195.062
    
    [GRAPHIC] [TIFF OMITTED] T6195.063
    
    [GRAPHIC] [TIFF OMITTED] T6195.064
    
    [GRAPHIC] [TIFF OMITTED] T6195.065
    
    [GRAPHIC] [TIFF OMITTED] T6195.066
    
    [GRAPHIC] [TIFF OMITTED] T6195.067
    
    [GRAPHIC] [TIFF OMITTED] T6195.068
    
    [GRAPHIC] [TIFF OMITTED] T6195.069
    
    [GRAPHIC] [TIFF OMITTED] T6195.070
    
    [GRAPHIC] [TIFF OMITTED] T6195.071
    
    [GRAPHIC] [TIFF OMITTED] T6195.072
    
    [GRAPHIC] [TIFF OMITTED] T6195.073
    
    [GRAPHIC] [TIFF OMITTED] T6195.074
    
    Mr. Gilman. Mr. Benjamin.
    Mr. Benjamin. We undoubtedly need to improve our human 
intelligence capabilities. I think as we do it, we need to keep 
a couple of things in mind. One is that although there was one 
lost American in al-Qaeda in the Taliban, I don't think it 
would have been that hard to get someone into the Taliban but 
it certainly is very, very difficult to get someone into al-
Qaeda.
    There is a difference between spying on religiously 
motivated groups and spying on governments which is what we 
have very good experience at doing. Governments have buildings, 
ordinary people who can be bought, who may have ideological 
sympathies with us, who have any number of reasons for wanting 
to cooperate with us.
    People who are motivated by a belief that the United States 
is waging war against their religion are not likely to be as 
easily acquired as assets. So this going to be very difficult 
and in this regard, the Israeli experience is very relevant. 
Hamas has been there for 15 years and they have had a terrible 
record of penetration. It is just very difficult to do. It is 
not going to be easy.
    That means in addition, we have to compensate by serious 
investment in upgrading our signals intelligence because the 
modes of communications are constantly exploding. We now have 
throwaway cell phones that are very hard to track and that 
means a lot of money and a lot of innovation is going to have 
to go into all of this.
    Mr. Gilman. Mr. Carr.
    Mr. Carr. I would say three simple words in addition to 
improving things, stop rewarding failure. I was very distressed 
after September 11th at the great deal of talk that there was 
about throwing a lot more money at places like the Central 
Intelligence Agency since they had managed to overlook warning 
signals that were quite plain and easily accessible even to 
common researchers like myself. We had warnings.
    Mr. Perle, I think, sells himself a bit short in not 
recognizing how long ago he was aware of the direct possibility 
of a threat to the domestic United States, I know Secretary 
Rumsfeld, who I have had the opportunity to talk to, was aware 
very early on. Our intelligence agencies seems to have had a 
concerted determination to give secondary importance to 
terrorism. So long as we keep throwing money at people who 
think that way, I think you have to look at who brings in the 
job. It is like contractors, who brings in the job well done 
and make them the recipients of funds.
    The CIA has fallen down. This is the latest in a series of 
major failures starting with, for me on this level, the Berlin 
blockade in 1948 that they failed to predict and the invasion 
of North Korea. I cannot see continually rewarding them for 
doing badly.
    Mr. Gilman. I want to thank are panelists again for your 
astute analysis today. You have given us a lot of food for 
thought.
    Thank you, Mr. Chairman.
    Mr. Shays. I just have a few more questions myself and we 
will let you get on your way.
    Is it important that we have a definition of terrorism?
    Mr. Perle. Could I say I think there is a definition that 
almost everyone of good will would recognize. It is not as 
elegant as Mr. Carr's definition but it is roughly terrorism is 
the killing or the attacking of civilians to achieve a 
political purpose. I think Mr. Carr said it more elegantly, but 
everyone understands that is what terrorism is. People who want 
to debate that really want to protect some terrorist activity 
because they associate themselves with the political objective.
    Mr. Shays. Do you all have 15 more minutes? Let me go to 
Mr. Putnam and then I am going to finish up.
    Mr. Putnam. I will ask one more question beginning with 
General Scowcroft. Under the Hart-Rudman Commission, which 
exhaustively reviewed a number of these threats, they 
identified the task of managing resentment of being one of the 
great challenges of this decade that some of the demographic 
and sociological factors you pointed out in the last round, 
General, this breeding ground of unrest among the youth, 
limited economic opportunities, have fostered a hostile 
attitude toward the United States, some of it perhaps justified 
and some of it not.
    How do we wage this two front war both in eradicating 
terrorism with a global reach and reinforcing to the civilians 
through our economic and diplomatic policies that we are a 
benevolent power and that we are not out to create a hegemonic 
force of American culture? That is kind of like asking you to 
solve the Middle East crisis in 25 words of less.
    General Scowcroft. That is a really tough one. To me that 
is the essence of leadership. That goes to the question of the 
chairman about unilateralism versus multilateralism. We need to 
act whenever we can in such a way that people want to emulate 
us, that they want to associate with us, that they want to 
support us. That is not always possible but to the extent that 
we can behave that way, then that truly is the way we try to 
behave, we don't seek any territory, we don't seek hegemony. 
Indeed, we would prefer to be left alone but to the extent that 
we can be an attractive world power, we will have succeeded.
    Mr. Perle. Mr. Putnam, I am not at all sure that we will 
ever achieve the goal of persuading everyone that we are a 
benign force in the world. I don't think there is any question 
that we are and anyone who looks at us objectively, I think 
will come to that conclusion. We are not perfect, but we are a 
benign force in the world.
    I think it is a mistake to believe that we have to do that 
in order to cope effectively with terrorism. What seems to be 
more important is to focus on what sadly is the most intense 
source of terrorism today and the foreseeable future and that 
is radical Islam.
    We are not being attacked by Latin Americans, broadly 
speaking we are not being attacked by South Asians. We are 
being attacked by people who hold a view of the world that is 
by and large indifferent to the facts, indifferent to the 
reality. Indeed, when they understand us best, they seem to be 
most motivated.
    Some of the people involved in September 11th lived in this 
country. They were under no misapprehension about how we treat 
our neighbors, about what kind of a society we are but they 
came to this country intent on doing damage and by the time 
they arrived, there was no potential to convert them by 
persuasion.
    I think we have to turn unfortunately to the poisonous 
infrastructure that has been developed that creates people who 
hate our way of life. It has very little to do with our actual 
behavior.
    Mr. Benjamin. You have asked the $64,000 question and we 
could spend months talking about it. We will never convince 
everyone of our good character and benign intentions. We are 
condemned to fight this kind of hatred I think for a generation 
to come.
    I think one of our chief goals, however, should be to limit 
the pool of potential recruits to this kind of terrorism. The 
demographic outlook at that we face is horrifying, the highest 
population growth rates in the world are in the Arab world and 
at the same time, the worst economic growth rates, worse than 
even sub-Saharan Africa, and this is not going to be solved 
easily.
    Two things I do think need to be done, one which the 
administration has begun to step forward on is recognition that 
our assistance levels need to come back up and we need to 
invest where we can to show America's desire to be a positive 
influence in the region.
    The other is one of the problems in Islam today is that 
there are very few scholars who are considered to be respected 
if they are supported by the government. As a result, that has 
opened up a lot of room for radical clergy to preach this kind 
of hatred. There are more moderate clergy out there and I think 
we should speak with our interlocutors in other countries and 
in this country as well and do what we can to support them so 
that it does not become the hard and fast doctrine that a 
suicide bomb is an act that glorifies God.
    Mr. Perle. I don't think there is any correlation at all 
between how much we spend on foreign assistance and the pool of 
potential terrorists in the world. For one thing, we don't 
spend the aid very well. We have a very difficult time figuring 
out how to turn aid dollars into real progress for the 
societies on which we confer it and often it actually sets them 
back by creating dependency.
    I hope we don't go down the path of throwing a lot of money 
at ill-conceived aid programs because we have some idea that is 
going to help us deal with terrorism. It isn't.
    Mr. Putnam. Let us get Mr. Carr.
    Mr. Benjamin. Very quickly. Clearly there are different 
philosophies at work here. I am not saying that aid is a 
panacea but it did turn South Korea, Taiwan, Thailand and any 
number of other countries into thriving democracies with a lot 
of prospects for contributing to a globalized world.
    We need to reinvent aid and we need to do that sort of 
thing from time to time with a lot of our programs that deal 
with the rest of the world. I see indifference as really the 
enemy here, not just what we have to deal with in looking out 
at a vast expanse and saying we can't do anything.
    Mr. Putnam. Mr. Carr.
    Mr. Carr. I guess I would agree with elements of both of 
the last two remarks. I am not sure the amount of aid is the 
question. I think it is more the attitude of the aid and 
picking which country it can be effective in. Your examples of 
where aid does a good job are well taken but in Somali, we saw 
exactly what happens to aid that is badly used. Our food aid 
was used effectively as a weapon for deliberate starvation. So 
it is really not a question of how much aid, it is how a 
question of how it is used and that leads to attitude and that 
gets me back to things like the stationing of troops in 
sensitive places in the Islamic world. We don't take that 
seriously enough.
    Part of the reason al-Qaeda is so attractive throughout the 
Muslim world is because that is one of their central issues. A 
lot of muslims take that very serious.
    Mr. Putnam. Didn't the Saudis have some role in selecting 
where we built that base?
    Mr. Carr. That leads back also to my remarks about the 
Saudi Government. I don't think we should be dealing with them 
as if they are telling us the truth by any means.
    One thing I also wanted to say to return to the Afghanistan 
campaign, we have also seen in this campaign in addition to the 
military advances, a way to reach the civilian population. When 
Secretary Rumsfeld and his people deliberately designed a 
campaign that showed respect for the civilian population of the 
country in which we were going into action, that had an 
enormous effect that we are continuing to feel right now in 
that we are still welcome there and they want us to stay there. 
That is not something that has happened in a very long time. 
Military action is not precluded by attitude.
    Mr. Putnam. Thank you, Mr. Chairman, for your indulgence.
    Mr. Shays. Thank you for your good questions and very 
interesting answers.
    When our embassy employees were taken in Iran, we had day 
one, day two and it was really a country held hostage. In my 
own simple mind, I thought if Hitler had taken prisoners, we 
wouldn't consider them hostages, we would consider them 
prisoners and we wouldn't have allowed Hitler to hold us 
hostage.
    When Iran didn't like the coverage of western news people, 
he kicked them out and the western news stopped reporting day 
one, two and three or maybe day 300. So the Iranians invited 
our western news people back in to report and again, we seemed 
to be held hostage.
    I like the fact that when President Reagan took office, he 
basically said in so many words, this is an act of war an we 
are going to deal with Iran accordingly and we got our people 
back.
    What I have been wrestling with is the whole concept of are 
there good terrorists and bad terrorists? This gets to the 
issue of Arafat. In my simple mind, my mind is saying to me we 
know he has funded terrorist activities, we know the PLO was 
responsible for the 50 tons of material from Iran, we know Iran 
has funded Hamas, etc. We know what they have been teaching 
their kids in school, etc.
    That is a long lead-in to the question of--that is why I 
was interested in the definition and General Scowcroft shook 
your head but when I asked was a definition of terrorism 
helpful or important, Mr. Perle, you gave us Carl light and it 
was basically not as elegant as you said. You shook your head 
so for the record, General Scowcroft, you don't believe we need 
to have a definition?
    General Scowcroft. No, I agree with Mr. Perle that we have 
a generally understood definition of terrorism. I think if we 
get into legalism and say this is and this isn't, we get into a 
morass we can't get out of.
    Mr. Shays. I misread you. A definition is not unimportant.
    General Scowcroft. I wouldn't pursue it now.
    Mr. Shays. Just as I believe these aren't criminal acts, 
they are acts of terror, they are acts of war. In other words, 
we can get into big battles of try someone for acts of 
terrorism as if they were criminal acts and we will be in the 
courts for 20 years. I don't mean to put words in your mouth. I 
am getting a little off field here.
    What I am wanting to do though is say I feel Arafat is in 
fact a terrorist. I feel what we need to do is say very simply, 
until the bombing stops, there can be no dialog with you, until 
you stop teaching your kids to hate Jews and the western world 
and preach it and until you stop funding these terrorist 
activities, we can't interact with you. Maybe we can't ever 
interact if I consider him a terrorist. Help me sort out this 
one. How do we decide good terrorists and bad terrorists?
    General Scowcroft. I am not sure I can sort it out but Mr. 
Carr had a wonderful definition of terrorism and I wrote down 
the United States is terrorist because of the Dresden bombing 
in World War II. There isn't any question about it according to 
his definition.
    I think we have to be flexible and I don't think we ought 
to be legalistic. Our goal in terrorism is not whether we try 
somebody according to criminal law or terrorist law. Trying 
individuals is not the goal, wiping out terrorism is the goal. 
I think when we get too legalistic about it, we will trip over 
our own legalisms.
    Mr. Shays. Thank you. Mr. Perle.
    Mr. Perle. At the risk of validating the criticism of Chris 
Patten and Foreign Minister Vetrine being simplistic, I think 
this is a case where a simple formula consistently applied is 
the only way we can expect to take and hold an essential moral 
high ground.
    Terrorism is the attack on civilians to achieve a political 
purpose. That is true whether you are sympathetic with the 
purpose or not. Most of the time I think we tend not to be 
sympathetic with the purposes of groups who apply violence to 
civilian populations. In that regard, I agree with you that 
Yasser Arafat's organization has been behaving as a terrorist 
organization and I think we ought to be very clear about that. 
It may be diplomatically inconvenient at one moment or another 
but when we start making excuses for diplomatic convenience, I 
think we are on very precarious ground.
    If I could add one small suggestion to that, Yasser 
Arafat's organization, the Palestinian Authority has received I 
think now something on the order of $2-$3 billion in recent 
years from the anti-simplistic French and other members of the 
European Union. The European Union has been writing checks for 
Yasser Arafat and to the best of my knowledge has never made 
one Euro of that contingent upon an end to suicidal bombing or 
even the verbal renunciation of suicidal bombing. I think it is 
a disgrace. I think the Europeans have been aiding and abetting 
terrorism by continuing to fund the Palestinian Authority 
without ever demanding their support be tied to a cessation of 
that sort of terrorism.
    Mr. Shays. Mr. Benjamin, do you want to jump in?
    Mr. Benjamin. Just quickly. On definition, there is a 
perfectly workable definition that is not as elegant as Mr. 
Carr's in the Federal Code about use of violence to advance 
political ends. I think it works fine.
    General Scowcroft is right, if we open the floor for a 
lengthy debate on what is terrorism and what isn't, we will 
find ourselves confronted with 180 countries that all have 
their own carve-out that they want to achieve on some 
particular grievance for which if someone were to use violence, 
it would be OK.
    I think the United States actually has been consistent and 
really impressively so when the MEK, the group that opposes the 
Iranian regime, had carried out attacks against Iran, we have 
condemned them. When there was an attack if you can believe it, 
several years ago, against Mullah Omar, of unknown authorship, 
probably Iranian, we condemned it, because we condemn 
terrorism.
    So I think that is an important stance to maintain. At the 
same time, we do need to have flexibility of mind, because at 
the end of the day, there are terrorists who need to be put out 
of business, and there are people who they may need to make 
diplomatic arrangements with once they have given up terror.
    Mr. Shays. Mr. Carr.
    Mr. Carr. Well, I'm obviously going to say, because I've 
written a book on it, copies of which have been supplied to 
your subcommittee, but I gather haven't arrived in your hands 
yet, since I've written a whole book on why we absolutely need 
a definition of terrorism, the one that I gave to you. I think 
for the last century, exactly what we've had is 180 voices 
saying that their version wasn't terrorism, and that one man's 
terrorist is another man's freedom fighter, and that underlines 
the point that we need an absolutely binding and specific 
definition of terrorism in the international community. Without 
it, we have what we've had for the last century, every side can 
claim that they aren't terrorists and everybody else is.
    General Scowcroft is right, the strategic bombing of 
Germany in the Second World War did amount to terrorism. And 
like all terrorism, it was completely counterproductive. It led 
to a rise in German industrial production and a rise in the 
German armed forces. It never should have been undertaken. It 
made the job of winning the Second World War harder.
    We need this definition badly.
    Mr. Shays. President Bush has said, you're either with us 
or against us. I saw him do it even at a very enjoyable St. 
Patrick's Day celebration with the prime minister of Ireland. 
Then there was some reference to the IRA. Obviously the time 
that some had with Colombia and the narcotics trade and the 
terrorists in Colombia.
    I thought it was significant that he was using his time to 
even tell a great friend, you're either with us or against us. 
It was said. And I'm going to start with you, Mr. Carr, because 
we've ended up with you each time. But it strikes me that this 
is a helpful thing to do. And I'd be curious to know what each 
of you think. And then I'm just going to close with one last 
question.
    Mr. Carr. Speaking of making his point to friends as well 
as enemies, I think it's vitally important. Your point about 
Arafat is very well taken. However, we had Arafat a great deal 
more on the ropes a month ago than we do right now, thanks to 
the actions of the Israeli defense forces, which also in the 
last few weeks on many occasions amount to terrorism. We need 
to make that point very strongly to the Israelis, that actions 
which are undertaken knowing that they will result in innocent 
civilian deaths amount to terrorism as well. And we should have 
been much stronger. And we've hurt our diplomatic position. A 
lot of the diplomatic advantage we gained as a result of 
Afghanistan we've lost because we did not stand up to Israel 
fast enough and what they were doing on the West Bank.
    Mr. Shays. Mr. Benjamin.
    Mr. Benjamin. I think the phrase are you with us or are you 
against us is----
    Mr. Shays. No, you either are with us or against us.
    Mr. Benjamin [continuing]. Is a useful phrase and a catchy 
one. I think that we need to beware of ever harnessing our 
entire foreign policy to one principle. In the past, that has, 
I think, led us astray. I think the greatest virtue of a great 
statesman is his flexibility of mind. And I think that it is 
useful, but we should never go on auto-pilot.
    Mr. Shays. No formulas.
    Mr. Perle. I think if you say you are with us or you are 
against us, we will find there will be many more people with us 
than if we don't say it. So I think it's very blunt, it's very 
direct, it's one of the great virtues of this President that he 
has abandoned some of the obscurances, conventions of our 
normal diplomacy. And I think it's going to produce results.
    Would you forgive me if I just said that I don't want the 
record to leave uncontested Mr. Carr's assertion of Israeli 
terrorism. I don't know what he's referring to. To the best of 
my knowledge, the Israelis have gone to enormous lengths to be 
as precise as they can in the way they've conducted military 
operations in the West Bank. They have gone into communities 
that might more readily have been bombed in order to avoid 
unnecessary civilian casualties.
    There will certainly be civilian casualties, but I think 
the numbers are modest, and I think the Israelis deserve 
enormous credit for the risks they've taken, and even some of 
the losses they've taken, in order to be as discriminating as 
possible in going after a terrorist infrastructure that has 
just become an intolerable threat to everyday life in Israel. 
I'll end with that.
    Gen Scowcroft. I don't mind the phrase, I'm not sure what 
the practical significance is, other than that I think everyone 
ought to be against terrorism in principle. And I think we 
focus on that statement of the President more than we focus on 
his statement that we're going after terrorism with a global 
reach. It seems to me that is at least as important a statement 
that the President made, and it focuses our attention where it 
needs to be focused.
    Mr. Shays. I'll tell you what it said to me. It said, to a 
country like Yemen that was on both sides of the equation, they 
had to make a choice. They couldn't be right down the middle. 
It said to me that ultimately, Saudi Arabia has to sort out its 
equivocating back and forth, and that's obviously going to be a 
bigger decision for Saudi Arabia.
    But in Yemen, they've decided to be with us. They've 
invited us in. And it seems to me, the gist of the 
determination on the part of the President, is that he is going 
to carry this out and he is going to--I mean, he has given 
examples where he said, elected government officials would come 
in, and they've said, we want to help you, and he's brought out 
some of the intelligence people to show these country leaders 
what is happening in their own country. And then he's said, 
you're either with us or against us here, and they've said to 
him, well, help us clean it up. Yemen in particular, but that's 
an example.
    So that's kind of how I'm reacting to your comment.
    I would end with your comment in which Mr. Perle said, I 
want to yield to General Scowcroft's wisdom, and that was the 
issue of not taking on too many enemies. You seem to define 
terrorism as global and regional. I would agree, I feel foolish 
saying I would agree as if I'm some expert here.
    But I will react to it and say to you that an analogy I had 
was the prosecutor in Connecticut learned that all of New 
Britain, police and fire, the only way they became officers and 
moved up the ladder was a pay off, every one of them. But they 
only went after one or two. He told me, if he turned over every 
stone, they're already united against him, and his 
investigation would have stopped and his prosecution would have 
stopped. So he did one or two or three, and then others knew he 
was coming. Then they came to him to tell him before he went 
after them and exposed things to him and so on.
    So if you are saying in essence that we can't turn over too 
many stones at once, I feel very comfortable with your comment. 
If in the end you're saying that there won't be a day of 
reckoning for even some of the regional terrorism, I wonder if 
we ultimately are going to succeed. I'd like for you to react 
to it.
    General Scowcroft. I think it's principally a matter of 
priorities. I think we have a start on Al Quaeda. I think if we 
really are, really succeed on Al Quaeda, and I think if we 
stick to it, we can, it will have a salutary effect on a lot of 
regional terrorism. It won't eradicate all of them. But there 
are dozens, if not hundreds, of regional kinds of terrorism. 
And if we declare wholesale war and active opposition to all of 
them at once, we're not going to get rid of any of them. That's 
what I worry about.
    Mr. Shays. Fair enough. Do any of you wish we had asked a 
question that you were prepared to answer that you want to put 
on the record? Any closing comments that any of you would like 
to make?
    This has been a really enjoyable hearing for me. I thank 
each of you for participating. I know with four people it 
requires a little more patience on your part. But thank you all 
very much. You really provided a very interesting and helpful 
afternoon. Thank you.
    With this, the hearing is closed.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]


</pre></body></html>
